May 1, 2020
VIA E-FILING
Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First Street, N.E.
Washington, DC 20543
Re:

Evans v. Sandy City, No. 19-1091

Dear Mr. Harris:
I am counsel of record for Respondents. The petition for a writ of certiorari in this
case was filed on March 2, 2020. By letter dated April 7, 2020, the court called for a
response by May 7, 2020. Due to the significant disruptions of the COVID-19 pandemic,
and pursuant to Rule 30.4 of the rules of this Court and the Court’s March 19, 2020
Order, Respondents respectfully request an extension of time to and including June 8,
2020, to file their response to the petition. Kevin Martin, counsel of record for Petitioner,
has stipulated via email to this request.
Sincerely,

Troy L. Booher
Counsel of Record for Respondents
cc: Kevin P. Martin
Counsel of Record for Petitioner
(via e-filing and email)

